                  The Internal Revenue Service’s Annual
                  Program Performance Report Could Be
                                 Improved

                                 September 2004

                       Reference Number: 2004-10-167




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                   DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                       September 24, 2004


      MEMORANDUM FOR CHIEF FINANCIAL OFFICER


      FROM:                  Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Internal Revenue Service’s Annual
                             Program Performance Report Could Be Improved
                             (Audit # 200410012)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Fiscal Year (FY) 2003 Annual Program Performance Report. The overall objective of
      this review was to determine whether the IRS prepared its FY 2003 Annual Program
      Performance Report according to regulations and fully disclosed any known data
      limitations. Each year, Federal Government agencies are required to compare actual
      performance with the goals established in their annual plans and make this information
      available to the President, the Congress, and the American public as part of the process
      of holding Federal agencies accountable for achieving program results. This audit was
      conducted as part of our FY 2004 general audit program.
      In summary, the IRS needs to ensure all of its FY 2003 performance measures are
      reported in the Management Discussion and Analysis portion of its annual financial
      statements. When information in the IRS FY 2005 Congressional Justification is
      considered along with that in the Management Discussion and Analysis portion of the
      financial statements, the IRS reported on only 56 of its 69 measures. In addition, the
      Chief Financial Officer (CFO) and her staff could be more proactive by reviewing the
      required explanations of measures that did not meet their goals and ensuring the
      measures developed by the IRS business units are valid. Further, the IRS needs to
      ensure it has performance measures to gauge its progress in addressing all of its major
      management challenges.
      We recommended the CFO report on all of the IRS performance measures in the IRS
      Management Discussion and Analysis portion of the annual financial statements; this
      should include all the measures in each year’s Annual Performance Plan. We further
      recommended the CFO review the quality of the explanations of any shortfalls and
                                            2

future corrective actions to achieve intended goals to ensure there is consistency in the
level and type of details provided in the explanations and action plans. The CFO should
work with business units’ senior executives to review their measures to ensure they are
valid. Moreover, the CFO, in coordination with the IRS operating divisions and
functions, should ensure performance measures and goals are developed to accurately
assess and measure the progress made in all of the major management challenges
facing the IRS.
Management’s Response: IRS management generally agreed with our
recommendations. The CFO will report on all measures, review all explanations of
performance shortfalls, and develop guidelines to review the definitions of measures,
including verification and validation information. However, the CFO stated that
Section 230 of Office of Management and Budget (OMB) Circular A-11 directs agencies
to summarize the management challenges and indicate if they significantly impede the
use of program performance data. In addition, the IRS is required to report on progress
made and planned actions to address these management challenges. Based on the
Circular A-11 guidance, the CFO believes that the IRS assessed and reported its
progress in addressing these challenges based on a set of planned actions.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: The OMB revised Section 230 in July 2004 and restated the
requirements that the FY 2004 Annual Program Performance Report must meet. The
revised section states, “…include a summary of the agency’s most serious management
and performance challenges, as identified by the Inspector General (IG) office, and the
agency’s progress in addressing those challenges.” We believe that it is in the IRS’ best
interest to develop measures for all of the major management challenges it faces so
that it can accurately and readily assess and document its progress in addressing these
challenges. While we still believe our recommendation is worthwhile, we do not intend
to elevate our disagreement concerning this matter to the Department of the Treasury
for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                             The Internal Revenue Service’s Annual Program
                                Performance Report Could Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Did Not Report Some of Its
Performance Measures ............................................................................. Page 2
         Recommendation 1: .......................................................................Page 5

More Information Needs to Be Reported to Explain Why Some
Performance Goals Were Not Met ............................................................ Page 5
         Recommendation 2: .......................................................................Page 7

Measures Reported in the Congressional Justification Do Not
Contain the Elements Needed to Meet GPRA Requirements ................... Page 8
Limitations Pertaining to the Accuracy of Certain Performance
Measures Should Be Disclosed ................................................................ Page 8
         Recommendation 3: .......................................................................Page 9

The Internal Revenue Service Does Not Have Performance
Measures for Some of Its Major Management Challenges........................ Page 10
         Recommendation 4: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – New Measures for Fiscal Year 2004 .................................. Page 17
Appendix V – List of the Reported Measures With
Incomplete Explanations ........................................................................... Page 19
Appendix VI – Management’s Response to the Draft Report .................... Page 24
             The Internal Revenue Service’s Annual Program
                Performance Report Could Be Improved

                         The Government Performance and Results Act of 1993
Background
                         (GPRA)1 is intended to improve the quality and delivery of
                         Federal Government services. It was enacted to improve the
                         accountability of Federal Government agencies to achieve
                         program results by emphasizing goal setting, customer
                         satisfaction, and results measurement. The GPRA requires
                         that Federal Government agencies submit to the President
                         and the Congress annual performance plans that set annual
                         goals with measurable target levels of performance.
                         Additionally, each Federal Government agency is required
                         to submit an annual program performance report (APPR) on
                         its success in achieving the goals established in the prior
                         year’s performance plan. In addition to providing
                         information to the President and the Congress, these plans
                         and reports are also intended to provide taxpayers with
                         information to allow them to assess the extent to which
                         Federal Government agencies are producing tangible public
                         benefits.
                         The Reports Consolidation Act of 20002 authorizes agencies
                         to produce either stand-alone performance reports or
                         consolidated reports. The expected benefits of issuing
                         consolidated reports are to:
                         •   Provide financial and performance management
                             information in a more meaningful and useful format for
                             the Congress, the President, and the public.
                         •   Improve the quality of agency financial and performance
                             management information.
                         •   Enhance coordination and efficiency on the part of
                             agencies in reporting financial and performance
                             management information.
                         For Fiscal Year (FY) 2003, the Office of Management and
                         Budget (OMB) required that the Department of the Treasury
                         prepare consolidated performance and accountability reports




                         1
                           Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                         sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                         2
                           Pub. L. No. 106-531.
                                                                                         Page 1
                       The Internal Revenue Service’s Annual Program
                          Performance Report Could Be Improved

                                   that include the information for all of its offices and
                                   bureaus, including the Internal Revenue Service (IRS).3
                                   This review was performed in the Offices of the Chief
                                   Financial Officer (CFO) in Washington, D.C.;
                                   New Carrollton, Maryland; and Atlanta, Georgia, during the
                                   period March through July 2004. The audit was conducted
                                   in accordance with Government Auditing Standards.
                                   Detailed information on our audit objective, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The IRS reported its FY 2003 performance in two separate
The Internal Revenue Service Did
                                   documents, the IRS FY 2003 Management Discussion and
Not Report Some of Its
                                   Analysis portion of its annual financial statements and the
Performance Measures
                                   IRS FY 2005 Congressional Justification. We compared the
                                   performance information in these documents to the IRS
                                   FY 2003 Annual Program Plan to determine if the IRS fully
                                   reported the results of its operations. We determined that
                                   the IRS did not report on certain performance measures
                                   listed in its FY 2003 Annual Program Plan.
                                   The Reports Consolidation Act of 2000 allows agencies to
                                   meet the reporting requirements of several different acts,
                                   such as the GPRA and the CFO Act of 1990,4 through a
                                   consolidated report, as long as the information provided
                                   adequately addresses the requirements of the acts. In
                                   FY 2003, the IRS included its financial and performance
                                   information in its financial statements to meet the
                                   requirements of both the GPRA and the CFO Act.
                                   The IRS FY 2003 Annual Program Plan contained
                                   69 performance measures that were used to define the level
                                   of performance the IRS expected to achieve in FY 2003.
                                   The IRS reported on only 37 performance measures
                                   (54 percent) in the Management Discussion and Analysis
                                   portion of its annual financial statements.
                                   We also reviewed the IRS FY 2005 Congressional
                                   Justification. That document principally addresses the IRS

                                   3
                                     Circular A-11 Part 6: Preparation and Submission of Strategic Plans,
                                   Annual Performance Plans, and Annual Program Performance Reports
                                   Section 230.1, dated July 2003.
                                   4
                                     Pub. L. No. 101-576, 104 Stat. 2838 (codified as amended in scattered
                                   sections of 5 U.S.C., 31 U.S.C., and 42 U.S.C.).
                                                                                                   Page 2
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            budget request for FY 2005, but it also contains both the
            target and actual performance for FY 2003 performance
            measures. The FY 2005 Congressional Justification
            contained an additional 19 (27 percent) performance
            measures that were not included in the Management
            Discussion and Analysis portion of the annual financial
            statements. Between the 2 documents, the IRS reported on
            56 of its FY 2003 performance measures, leaving
            13 measures unreported.
            The measures that were not reported assess various aspects
            of the IRS Processing, Assistance, and Management
            program and its Tax Law Enforcement program. Table 1
            shows the number of measures the IRS associates with each
            program and the numbers and percentages not reported.
                    Table 1: Number of Performance Measures Not Reported
                                          (FY 2003)

                                         Number of      Number Not Percentage
                      Program
                                         Measures        Reported Not Reported
            Processing, Assistance,
                                               31               7             23%
            and Management
            Tax Law Enforcement                38               6             16%
            Total                              69              13             19%
            Source: Comparison of the IRS FY 2003 Annual Performance Plan to
            the FY 2003 Management Discussion and Analysis portion of the annual
            financial statements and the FY 2005 Congressional Justification.

            IRS staff in the CFO’s office explained that these
            13 measures were not reported because the Department of
            the Treasury CFO instructed all bureaus to limit their reports
            to outcome measures only.5 The IRS does not consider
            these 13 measures to be outcome measures. Further, the
            CFO staff stated the IRS has discontinued using these
            13 measures and did not include them in the IRS FY 2004
            Annual Performance Plan. Table 2 shows the 13 measures
            that were not included in the FY 2003 IRS reports.



            5
              An outcome measure provides an assessment of the result of a program
            activity when it is compared to its intended purpose. An output measure
            is the tabulation, calculation, or recording of activity or effort expressed
            in a quantitative or qualitative manner.
                                                                               Page 3
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

                        Table 2: Performance Measures Not Reported
                                                                                 Percentage
                Performance Measure       Planned     Actual        Difference
                                                                                 Difference
            Advance Pricing Agreements
                                                140            89          -51        -36.43
            and Prefiling Agreements
            Teletax6 and Toll-Free
                                             50,000      44,775         -5,225        -10.45
            Automated Calls Answered
            Total Returns Prepared         737,000      665,868        -71,132         -9.65

            Tax Law Contacts              1,900,000 1,719,230         -180,770         -9.51

            Accounts Contacts             3,300,000 3,255,018,         -44,982         -1.36
            Offers in Compromise
                                           124,000      136,822      12,822          10.34
            Processed
            Tax Court Cases (Beg.
                                            30,000       42,146      12,146          40.49
            Inventory and Receipts)
            Number of Tax Court
                                            18,000       21,132       3,132          17.40
            Receipts
            Service-wide Full-Time
            Equivalents (FTE)7
                                            98,934             *           *             *
            (including the Earned Income
            Tax Credit [EITC])*
            Taxpayer Contact FTE
                                                675            *           *             *
            Positions (w/EITC)*
            FTE Positions per Billion
            Dollars of real Gross              9.98            *           *             *
                               8
            Domestic Product*
            Number of Web Site Hits
                                                 4.0        4.36        .36           9.00
            (billions)
            Education and Outreach Staff
                                              1,600        1,496       -104          -6.50
            Years
            * These measures were included in the Plan for budget purposes and were not
            intended to be performance measures.
            Source: Review of the IRS FY 2003 Management Discussion and
            Analysis portion of the annual financial statements and the FY 2005
            Congressional Justification.

            The IRS has developed 26 new measures to be included in
            the FY 2004 Annual Program Plan and assessed in the
            FY 2004 APPR.9 While we agree it is important for the IRS


            6
              Telephone Tax Assistance (Teletax) allows taxpayers to use an
            automated application through a telephone to access refund and fact of
            filing information to determine the status of their tax refund or tax
            return, or to obtain limited tax law information.
            7
              A measure of labor hours in which 1 FTE is equal to 8 hours
            multiplied by the number of compensable days in a fiscal year.
            8
              Total market value of the final goods and services produced by a
            nation’s economy during a specific period (usually a year).
            9
              See Appendix IV for the list of new measures.
                                                                                    Page 4
                    The Internal Revenue Service’s Annual Program
                       Performance Report Could Be Improved

                                to continually work to improve its measures, OMB
                                Circular A-11 does require that the APPR include actual
                                performance for any goal that was discontinued after the
                                fiscal year covered by the report. Moreover, to comply with
                                the GPRA and the Reports Consolidation Act of 2000, the
                                IRS should include all of the measures in the Management
                                Discussion and Analysis portion of its annual financial
                                statements. In this document, the IRS could separate and
                                annotate the measures that were included in its yearly
                                annual performance plan which it plans to discontinue or
                                does not classify as outcome measures.

                                Recommendation

                                1. The CFO should report the IRS’ performance on all of
                                   the measures included in each year’s annual
                                   performance plan. These measures should all be in the
                                   Management Discussion and Analysis portion of the
                                   IRS’ annual financial statements. In this document, the
                                   IRS could separate and annotate the measures that it
                                   does not classify as outcome measures.
                                Management’s Response: The CFO will designate which
                                measures will be discontinued in future year submissions as
                                well as any measures that will not be reported in the
                                Management Discussion and Analysis section of its annual
                                financial statement and the Treasury Performance and
                                Accountability Report.
                                We analyzed the FY 2003 Management Discussion and
More Information Needs to Be
                                Analysis portion of the IRS’ annual financial statements to
Reported to Explain Why Some
                                assess its adherence to GPRA requirements and OMB
Performance Goals Were Not
                                instructions. OMB Circular A-11 specifies that the APPR
Met
                                describe why any projected level of performance was not
                                met and what steps will be taken to meet the goal in the
                                future.
                                In its FY 2003 Management Discussion and Analysis
                                portion of the annual financial statements, the IRS reported
                                that 13 of 37 performance measures did not meet established
                                targets. For 5 of the 13 measures, the IRS provided
                                sufficient details about why the goals were not met and what
                                actions the IRS will take to meet the goals in the future. For
                                example, the IRS established a goal of 74 percent for the
                                                                                       Page 5
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            telephone level of service in the Automated Collection
            System (ACS)10 but was able to achieve only a 70 percent
            rate in FY 2003, which is only a 1 percent improvement
            over FY 2002. The IRS explained the shortfall as follows:
                 The target was missed due to an increasing number
                 of calls not related to a collection matter and
                 therefore, not belonging to this specialized area.
                 In addition, during the filing season, service was
                 further impacted by the re-assignment of collection
                 specialized representatives to assist in customer
                 service areas of tax law and accounts.
            The IRS outlines its plan to address the problem as follows:
                 In FY 2004, a small increase in resources and
                 enhancements to the scheduling process should
                 contribute to an improved service level. In
                 addition, a team has been established to look at
                 what drives telephone traffic and is expected to
                 develop recommendations related to call
                 forecasting and suggest upgrades to the
                 management tools designed to match resources to
                 call demand.
            In contrast, the explanations given for shortfalls in the
            remaining eight measures were not well described. For
            example, the National Taxpayer Advocate, who leads the
            Taxpayer Advocate Service (TAS), established a Casework
            Quality Index of 90 percent11 but achieved a rate of only
            84 percent. The explanation for the shortfall was, “Despite
            an improvement of 10 percentage points over the
            FY 2001-2002 levels, … the goal was not met due to
            inconsistency in addressing taxpayer issues and customer
            education.”



            10
               The ACS is a telephone contact system through which telephone
            assistors collect unpaid taxes and secure tax returns from delinquent
            taxpayers who have not complied with previous notices.
            11
               A valid random local (i.e., TAS office-level) sample of “criteria
            closed” cases are reviewed and scored monthly against customer service
            standards of timeliness, accuracy, and communication. The quality
            index score is the number of points achieved divided by the total
            applicable points (on a 100-point scale).
                                                                          Page 6
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            Additionally, the explanation of how this shortfall would be
            addressed was not clear:
                FY 2004 activities include validation of TAS’
                ability to take consistent and appropriate efforts to
                address taxpayer related issues and effectively
                educate its customers, and a re-evaluation of
                quality standards to ensure they match customer
                service standards developed using customer
                satisfaction survey data.
            The IRS reported a total of 19 measures in the FY 2005
            Congressional Justification. All of the 19 measures reported
            in the Congressional Justification met their established
            targets.
            Without a detailed explanation of why a goal was not met,
            and clear explanations of plans to ensure future
            achievement, the APPR cannot be used to assess the IRS’
            past performance and evaluate whether planned corrective
            actions are adequate. See Appendix V for a complete list of
            measures with explanations which we did not consider to be
            adequate.
            While the CFO and her staff are not responsible for
            developing the performance measures for each individual
            business unit, they are responsible for compiling all the
            measures and producing the IRS APPR. Consequently, they
            are in the best position to review the quality of any
            explanations of shortfalls and future actions provided by the
            business units. They should notify the business units of any
            explanations which do not meet the GPRA requirements and
            request that the business units provide specific, detailed
            explanations.

            Recommendation

            2. The CFO should review the consistency and level of
               details provided in any explanations of shortfalls and
               future corrective actions associated with reported
               performance measures. Any explanation(s) determined
               to not meet the GPRA requirements should be returned
               to the respective business unit for correction.


                                                                   Page 7
                      The Internal Revenue Service’s Annual Program
                         Performance Report Could Be Improved

                                  Management’s Response: The CFO will implement a more
                                  comprehensive process for reviewing explanations of
                                  performance shortfalls to ensure the IRS provides clear and
                                  specific explanations.
                                  In addition to explaining why any goals were not met and
Measures Reported in the
                                  providing plans to improve performance relative to these
Congressional Justification Do
                                  goals, agencies are also required to:
Not Contain the Elements Needed
to Meet GPRA Requirements         •   Compare actual performance with planned performance
                                      set out in the annual program plan and report the success
                                      of achieving any performance measure.
                                  •   Include actual performance data for 3 preceding fiscal
                                      years.
                                  •   Evaluate the current fiscal year annual program plan
                                      relative to the performance achieved on the goals in the
                                      fiscal year covered by the APPR.
                                  For the 19 performance measures not in its FY 2003 annual
                                  financial statements but reported in the FY 2005
                                  Congressional Justification, the IRS met only 2 of the
                                  elements required by the GPRA. The IRS did compare
                                  actual performance to planned performance goals and did
                                  provide actual performance data for 3 preceding fiscal years.
                                  However, the Congressional Justification is not the vehicle
                                  intended to report agency results and, as recommended
                                  previously, the IRS should address all of its performance
                                  measures in the Management Discussion and Analysis
                                  portion of its annual financial statements.
                                  We identified three performance measures that included
Limitations Pertaining to the
                                  information which distorts the measures:
Accuracy of Certain Performance
Measures Should Be Disclosed      •   Total Paper Business Returns Filed.
                                  •   Toll-Free Tax Law Quality.
                                  •   Toll-Free Account Quality.
                                  The Total Paper Business Returns Filed measure is intended
                                  to report the total number of paper business returns filed.
                                  The IRS includes in this measure Estimated Tax for
                                  Individuals (Form 1040-ES). However, Form 1040-ES is a
                                  payment slip for individuals to include with their estimated
                                  tax payments; it is not a business tax return form.

                                                                                        Page 8
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            The Toll-Free Tax Law Quality measure reports the
            percentage of taxpayers who receive accurate responses to
            their tax law inquiries. The Toll-Free Account Quality
            measure reports the percentage of taxpayers who receive
            accurate responses to their account inquiries. For each of
            these measures, if the IRS employee accurately answers the
            taxpayer’s technical tax or account question(s), but does not
            provide his or her identification number to the taxpayer, the
            employee’s response is considered inaccurate. This issue
            was previously raised by the Government Accountability
            Office (GAO) in a report issued in November 2002.12
            OMB Circular A-11 requires that agencies determine and
            describe how they will verify and validate the measured
            value of actual performance. When creating its annual
            performance plan, the IRS requires that its business units
            define their critical performance measures in the document
            referred to as the IRS performance measures data dictionary.
            The data dictionary also identifies any limitations the IRS
            has identified with its measures or the data used to compile
            the measures. In the FY 2003 data dictionary, IRS
            management used conformance to certain administrative
            procedures, such as providing the IRS representative’s
            identification number to the taxpayer, as part of the
            definitions for Toll-Free Tax Law Quality and Toll-Free
            Account Quality, despite the fact that nonadherence to this
            procedure does not indicate whether the correct tax law
            answer or taxpayer account information was provided.
            Members of the CFO staff stated that two of the three
            measures we discussed have been revised for FY 2004. The
            IRS will no longer count as an error those instances in
            which an employee does not provide his or her identification
            number to the taxpayer.

            Recommendation

            3. The CFO should review the definitions of the measures
               developed by the business units and ensure they are


            12
              Formerly the General Accounting Office. Tax Administration: IRS
            Needs to Further Refine Its Tax Filing Season Performance Measures
            (GAO-03-143, dated November 2002).
                                                                         Page 9
                       The Internal Revenue Service’s Annual Program
                          Performance Report Could Be Improved

                                        appropriate for the results that the measures were
                                        created to assess.
                                   Management’s Response: The CFO requires the business
                                   unit subject matter experts to develop the definition and
                                   identify the limitations to accuracy for each program
                                   measure. In addition, the CFO will also develop and
                                   implement guidance to include data dictionary reviews of
                                   measures definitions, verification, and validation
                                   information as part of its annual performance review
                                   process.
                                   In FY 2003, the Treasury Inspector General for Tax
The Internal Revenue Service
                                   Administration (TIGTA) and GAO reported to the IRS the
Does Not Have Performance
                                   13 most serious management and performance challenges it
Measures for Some of Its Major
                                   faces. In its FY 2003 Management Discussion and Analysis
Management Challenges
                                   portion of the annual financial statements and its FY 2005
                                   Congressional Justification, the IRS addressed only 8 of
                                   these challenges.
                                   Security of both information and employees and facilities13
                                   was not assessed. As the primary revenue collector for the
                                   United States, the IRS is a target for terrorists and hackers.
                                   Threats to information have increased as the result of
                                   internal factors (such as increased connectivity of systems)
                                   and external factors (such as the volatile threat environment
                                   resulting from increased terrorist activity).
                                   There were no measures to assess the IRS Business Systems
                                   Modernization program. The IRS has several projects and
                                   initiatives underway to update its outdated computer
                                   systems. The IRS’ dependence on such old technology has
                                   been repeatedly identified as a major challenge the IRS must
                                   meet.
                                   As with many other Federal Government agencies, the IRS
                                   continues to face a range of serious personnel management
                                   issues, including recruiting, training, and retaining
                                   employees, collectively categorized as human capital issues.
                                   The GAO considers strategic human capital management as
                                   a high-risk area for the Federal Government, and the
                                   President added human capital to his list of Priority


                                   13
                                     Security of IRS – Information, and Security of IRS – Employees and
                                   Facilities are considered to be two separate challenges.
                                                                                               Page 10
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            Management Objectives in FY 2001. While the IRS
            identified the recruiting, training, and retaining of a highly
            skilled workforce as one of its strategic initiatives, its
            FY 2003 annual program plan and APPR did not contain
            any measures to assess the IRS’ progress in meeting this
            initiative.
            Collecting taxes due the Federal Government continues to
            be a significant challenge for the IRS. As of May 2004, the
            IRS had an accounts receivable of unpaid taxes, including
            interest and penalties, totaling $292 billion. Because of the
            potential revenue losses and the effect on voluntary
            compliance, this is a high-risk area that IRS management
            needs to focus on. However, this is another area for which
            the IRS did not include a measure in its FY 2003 APPR.
            Without effective performance measures and goals for these
            five major management challenges, the IRS cannot
            adequately measure and report its progress in addressing
            them. This makes it difficult for the IRS and its
            stakeholders to assess the IRS’ progress in addressing these
            challenges.

            Recommendation

            4. The CFO, in coordination with the IRS operating
               divisions and functions, should ensure performance
               measures and goals are developed to accurately assess
               and measure the progress made in the major
               management challenges/high-risk areas identified by the
               TIGTA and GAO.
            Management’s Response: Per the CFO, Section 230 of
            Circular A-11 directs agencies to summarize the
            management challenges and indicate if they significantly
            impede the use of program performance data. In addition,
            the IRS is required to report on progress made and actions
            planned to address these management challenges. The CFO
            stated that the IRS assessed and reported its progress in
            addressing these challenges based on a set of planned
            actions.
            Office of Audit Comment: The OMB revised Section 230
            in July 2004 and restated the requirements that the FY 2004
            APPR must meet. The revised section states, “…include a
                                                                    Page 11
The Internal Revenue Service’s Annual Program
   Performance Report Could Be Improved

            summary of the agency’s most serious management and
            performance challenges, as identified by the Inspector
            General (IG) office, and the agency’s progress in addressing
            those challenges.” We believe that it is in the IRS’ best
            interest to develop measures for all of the major
            management challenges rather than just discuss plans to
            address the challenges it faces so that it can readily and
            accurately assess and document its progress in addressing
            these challenges.




                                                                Page 12
                           The Internal Revenue Service’s Annual Program
                             Performance Report Could Be Improved

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology
The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) prepared its Fiscal Year (FY) 2003 Annual Program Performance Report (APPR)
according to regulations and fully disclosed any known data limitations. We also determined
whether the measures addressed the IRS’ major management challenges. To accomplish the
overall objective, we:
I. Determined the procedures and processes used to gather data from the organizational and
   functional business units.
    A. Interviewed the Chief Financial Officer’s staff to learn how data are collected for input to
       the IRS APPR.
    B. Interviewed the Office of Strategic Planning and Budget staff to gain an understanding of
       their input for the submission of the Annual Program Plan (APP) and the APPR.
    C. Determined if any additional guidance (from the Office of Management and Budget, the
       Department of the Treasury, or other sources) was used for preparation of the APPR.
II. Evaluated the effectiveness of the validation and verification process applied by the
    operational and functional business units to the performance measures.
    A. Determined who performs the data verification and validation in each operational and
       functional business unit.
    B. Determined the process used by each operational and functional business unit to validate
       and verify its measures.
III. Determined if all the Government Performance and Results Act of 19931 requirements of the
     APPR were addressed by the IRS. If any were not, we described and if possible quantified
     the impact on the APPR and the IRS measures as a whole.
IV. Analyzed the measures to determine which changed from FY 2002 to FY 2003. For those
    that changed, we determined if there is an explanation of how the increased or decreased
    goals were met.




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 13
                            The Internal Revenue Service’s Annual Program
                              Performance Report Could Be Improved

V. Determined if the major management challenges (as determined by the Treasury Inspector
   General for Tax Administration [TIGTA] and the Government Accountability Office
   [GAO]2) were identified and effectively addressed in the IRS FY 2003 APP and APPR, in
   accordance with the Reports Consolidation Act of 2000.3 As part of determining
   effectiveness, we determined if the measures were appropriately sized in relation to the
   known extent of the challenge.
VI. Determined if any prior TIGTA or GAO reports identified concerns with IRS performance
    measures or the systems that produced the measures and if any recommendations were made.
    We then determined if the IRS followed through on its response.




2
    Formerly the General Accounting Office.
3
    Pub. L. No. 106-531.



                                                                                       Page 14
                      The Internal Revenue Service’s Annual Program
                        Performance Report Could Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Charles Ekunwe, Lead Auditor
Ken Henderson, Senior Auditor
Gene A. Luevano, Auditor




                                                                                      Page 15
                     The Internal Revenue Service’s Annual Program
                       Performance Report Could Be Improved

                                                                     Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Financial Officer OS:CFO




                                                                          Page 16
                            The Internal Revenue Service’s Annual Program
                              Performance Report Could Be Improved

                                                                                                     Appendix IV


                                  New Measures for Fiscal Year 2004

                                                                    2004
                    Performance Measure                                             New or Prior Measure
                                                                    Goal
    Timeliness of Tax Products to the Public(o)1                     75%                     New
                                                                                       Customer Account
    Customer Accuracy-Customer Accounts Resolved(o)                  89%
                                                                                    Correspondence Quality
    Field Assistance Accuracy of Tax Law Contacts(o)                 80%                     New
    Automated Collection System2 Accuracy(o)                         88%                     New
    Compliance Services Collection Operation Accuracy                95%                     New
    Automated Underreporter (AUR)3 Case Accuracy(o)                  94%              AUR Paper Quality
    AUR Customer Satisfaction(o)                                     49%                     New
                                                                     94%          Correspondence Examination
    Correspondence Examination Accuracy(o)                                                  Quality
    Examination Customer Satisfaction (Large and Mid-Size           83.5%                    New
    Business Division)(o)
    Office of Appeals Closure to Receipt Ratio(o)                    81%         Office of Appeals Cases Closed
    Accuracy Rate of Distributed Tax Products-External(o)           100%                      New
    Percentage of Business Returns Processed Electronically(o)      19.6%                     New
    Deposit Timeliness(o)
         Wage and Investment (W&I) Division                       $500.00
                                                                                               New
         Small Business/Self-Employed (SB/SE) Division            $500.004
    Deposit Error Rate(o)
         W&I Division                                                4.0%
                                                                                               New
         SB/SE Division                                              1.7%
    Refund Timeliness(o)                                            98.4%                      New
    Refund Error Rate (w/systemic errors)(o)                         5.3%                      New
    Business Master File5 Refund Interest Paid(o)                   $1,500                     New
    Percentage of Payments Received Electronically                  33.6%                      New
    Customer Accounts Resolved-Customer Satisfaction(o)              56%                       New




1
  (o) Denotes the measure is considered an outcome measure, not a workload indicator, by the Internal Revenue
Service (IRS).
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  The automated analysis and processing of potential underreported/over reported issues identified through
information return matching.
4
  The lost opportunity cost of interest money received by the IRS but not deposited by the next day, per $1 million of
deposits, using a constant 8% interest rate.
5
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                            Page 17
                           The Internal Revenue Service’s Annual Program
                             Performance Report Could Be Improved



                                                                    2004           New or Prior Measure
                    Performance Measure
                                                                    Goal
    Taxpayer Assistance Center6 Contacts                         8,367,959     1) Total Returns Prepared
                                                                               2) Tax Law Contacts
                                                                               3) Accounts Contacted
    Employee Health and Safety-Lost Workday Case Rate(o)            0.49                      New
    Number of Post filing Legal Advice Cases Closed                12,400                     New
    Number of Tax Court Cases Closed                               19,000      1) Tax Court Cases (Beginning
                                                                               Inventory and Receipts)
                                                                               2) Number of Tax Court Receipts
  Potentially Collectible Inventory (billions)                     $85.7                      New
  Ticket Activity-Open7                                          1,153,250                    New
  Ticket Activity-Closed8                                        1,153,250                    New
Source: IRS’ Fiscal Year 2005 Congressional Justification.




6
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face-to-face.
7
  Ticket Activity-Open is the number of help desk requests received via a telephone call, email, fax, walk-in, or
other means.
8
  Ticket Activity-Closed is the number of help desk tickets resolved during the period of interest.




                                                                                                            Page 18
                         The Internal Revenue Service’s Annual Program
                           Performance Report Could Be Improved

                                                                                             Appendix V


             List of the Reported Measures With Incomplete Explanations1

G. Toll-Free Tax Law Quality
Description: The percentage of customers receiving accurate responses to their tax law inquiries.
This evaluates the customer (external), administrative (internal) and regulatory accuracy of this
service.
FY 2003 Performance: The goals for FY 2003 were set based on FY 2002 performance and
anticipated score increases due to the implementation of the new Embedded Quality (EQ)
process. The expected improvement from EQ was not realized, and IRS is conducting a
root-cause analysis to determine the reasons why the outcomes were not achieved.
Toll-Free Tax Law Quality

                              FY2003
    FY2001 FY2002
                          Plan       Actual
     75%      81%         86%         80%

Future Plans: The following actions will be taken to improve the accuracy percentage for
FY 2004: delivery of application-specific training and subsequent proficiency certification;
ongoing research and analysis of quality data to identify improvement opportunities and
initiatives; implementation of Contact Recording to enhance the ability of management to gauge
and improve individual performance.
H. Toll-Free Account Quality
Description: The percentage of customers receiving accurate responses to their account
inquiries. This evaluates responses posed by internal and external customers.
FY 2003 Performance: The goals for FY 2003 were set based on FY 2002 performance and
anticipated score increases due to the implementation of the new Embedded Quality (EQ)
process. The expected improvements from EQ were not realized, and IRS is conducting a
root-cause analysis to determine the reasons why the outcomes were not achieved.




1
 Source: The Internal Revenue Service (IRS) Fiscal Year (FY) 2003 Management Discussion and Analysis portion
of the annual financial statements. These statements were taken verbatim from the IRS document.
                                                                                                    Page 19
                       The Internal Revenue Service’s Annual Program
                         Performance Report Could Be Improved

Toll-Free Account Quality

                           FY2003
FY2001 FY2002
                        Plan     Actual
  69%        74%        77%       67%

Future Plans: The following actions will be taken to improve the accuracy percentage for
FY 2004: delivery of application-specific training and subsequent proficiency certification;
ongoing research and analysis of quality data to identify improvement opportunities and
initiatives; implementation of Contact Recording to enhance the ability of management to gauge
and improve individual performance.
I. Customer Satisfaction Walk-In
Description: Represents the customers’ overall level of satisfaction with the services provided
by the IRS at its Taxpayer Assistance Centers (TACs). The scores represent the average overall
level of customer satisfaction (“Keystone” question) from the Customer Satisfaction
transactional surveys. Survey recipients are asked to rate IRS performance on a 5-point scale,
where a score of 1 or 2 indicates Dissatisfied and 4 or 5 indicates Satisfied. A limitation that
may affect the validity of the data is the method in which the survey is conducted. The results
are based on comment cards that are voluntarily completed by customers who have visited a
Field Assistance office. Traditionally, comment cards are completed by customers who are
either very satisfied or very dissatisfied with the service received, with the majority of comment
cards being completed by customers who tend to be more satisfied. Therefore, the results should
be viewed in more of a qualitative, rather than a quantitative, sense.
FY 2003 Performance: Customer satisfaction was below the target because the service at the
Field Assistance (FA) offices for this period remains a key improvement factor in the taxpayer’s
eyes and survey results continue to indicate that customer wait time is highly correlated to their
overall satisfaction. Survey results are obtained through comment cards voluntarily completed
by customers, generally those who are either very satisfied or very dissatisfied with the service
received.
Customer Satisfaction Walk-In Percentage Satisfied

                           FY2003
FY2001 FY2002
                        Plan     Actual
  90%        86%        88%       87%

Future Plans: For 2004, IRS FA offices will continue to implement the network of the Queuing
Management System (Q-Matic) to screen and categorize taxpayer needs.



                                                                                           Page 20
                       The Internal Revenue Service’s Annual Program
                         Performance Report Could Be Improved

O. Field Collection Quality
Description: Score awarded to reviewed Collection cases by a third-party reviewer using the
Collection Quality Measurement System standards. Each standard, if met, has a value. Values
are totaled to arrive at the score, with deductions in the overall composite score for failure to
meet a standard designated as critical.
FY 2003 Performance: Quality scores remained at levels below target despite improved scores
in the following areas: clear action dates, no activity lapses over 75 days, and timely follow-ups.
In addition, FY 2003 scores improved (over FY 2002 levels) due to increased engagement
between managers and revenue officers to facilitate timeliness and quality of case resolution.
Field Collection Quality

                           FY2003
FY2001 FY2002
                        Plan     Actual
  84%        84%        87%       84%

Future Plans: In FY 2004 and beyond, IRS will continue to develop and implement
recommendations to improve case quality.
P. Automated Underreporter Quality
Description: Quality of all Automated Underreporter (AUR) account actions as a result of
taxpayer inquiries or internal requests. Quality of casework in the underreporter area is
measured on paper closed cases only.
FY 2003 Performance: Deficiencies include timeliness in meeting interim contact requirements
and the format of correspondence sent to taxpayers. The Embedded Quality initiative will
capture new data and plans are to replace this measure.
Automated Underreporter Quality

                           FY2003
FY2001 FY2002
                        Plan     Actual
  95%        94%        95%       91%

Future Plans: In FY 2004 IRS will continue to refine the process of identifying and selecting
workload using data analyses and additional business rule development with the ultimate goal of
removing the screen out cases (cases closed without sending notice to the taxpayer.)




                                                                                           Page 21
                       The Internal Revenue Service’s Annual Program
                         Performance Report Could Be Improved

T. Examination – Case Quality Score
Description: The score awarded to a reviewed Field Examination case by a Quality Reviewer
using the Examination Quality Measurement System quality standards.
FY 2003 Performance: Despite continued improvements in examination quality, year-end
performance is slightly below the planned target. Areas contributing to shortfall include a lack
of embedded quality in Field Examination Operations and the need to further monitor the impact
of Examination Reengineering Initiatives on case quality.
Examination Case Quality Score

                           FY2003
FY2001 FY2002
                        Plan       Actual
  70%        71%        77%        76%

Future Plans: In FY 2004 embedded quality will be implemented for field exam, providing the
IRS with better tools to manage errors in the field.
U. Taxpayer Advocate Casework Quality Index
Description: Measure of effectiveness in meeting customer expectations based on a random
sample of cases reviewed and scored against customer service standards of timeliness, accuracy,
and communication.
FY 2003 Performance: Despite an improvement of 10 percentage points over the FY 2001-2002
levels, the goal was not met due to inconsistency in addressing taxpayer issues and customer
education.
Taxpayer Advocate Casework Quality Index

                                FY2003
 FY2001      FY2002
                            Plan      Estimate
   72%         79%          90%          84%

Future Plans: FY 2004 activities include validation of TAS’ ability to take consistent and
appropriate efforts to address taxpayer related issues and effectively educate its customers, and a
re-evaluation of quality standards to ensure they match customer service standards developed
using customer satisfaction survey data.




                                                                                            Page 22
                      The Internal Revenue Service’s Annual Program
                        Performance Report Could Be Improved

L. Employee Plans / Exempt Organizations Examinations Closed
Description: Number of Employee Plans plus Exempt Organizations return examinations closed
in all categories.
FY 2003 Performance: The target was missed in the Employee Plan component with the
redirection of large numbers of employees to work incoming determination receipts instead of
their planned examinations, necessary due to an unanticipated number of receipts.
EP/EO Examinations Closed

                          FY2003
FY2001 FY2002
                       Plan     Actual
 15,988    13,549     15,250    13,260

Future Plans: In FY2004 IRS will continue to address examination challenges with
improvements in the Exempt Organization determination process and implementation of
electronic filing of Form 990 returns.




                                                                                       Page 23
The Internal Revenue Service’s Annual Program
  Performance Report Could Be Improved

                                                Appendix VI


Management’s Response to the Draft Report




                                                     Page 24
The Internal Revenue Service’s Annual Program
  Performance Report Could Be Improved




                                                Page 25
